No. 20-14
In the

Supreme Court of the United States
Congregation Rabbinical College of
Tartikov, Inc., et al.,
Petitioners,
v.
Village of Pomona, New York, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

REPLY BRIEF
Joseph A. Churgin
Donna C. Sobel
Savad Churgin
55 Old Turnpike Road,
Suite 209
Nanuet, New York 10954
(845) 624-3820

John G. Stepanovich
Counsel of Record
James M. Henderson, Sr.
Of Counsel
Stepanovich Law, PLC
618 Village Drive, Suite K
Virginia Beach, Virginia 23454
(757) 410-9696
john@stepanovichlaw.com

Roman P. Storzer
Storzer & A ssociates, P.C.
1025 Connecticut Avenue NW,
Suite 1000
Washington, DC 20036
(202) 857-9766
Counsel for Petitioners
299617

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
I. Respondents Misapprehend the Nature
of the Decision Below and the Article III
Standing Requirement of Ripeness . . . . . . . . . . . . . . 1
II. Other Than a General Denial, Respondents
Failed to Address the Conflicts Amongst the
Decisions of the First, Second, Third, Fifth,
Sixth, Seventh, Ninth, and Eleventh Circuits . . . . . . 3
III. The Review Sought by Petitioners will
Change the Result Below . . . . . . . . . . . . . . . . . . . . . . . 5
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Cornell Univ. v. Bagnardi,
68 N.Y.2d 583 (1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Nat’l Org. for Marriage, Inc. v. Walsh,
714 F.3d 682 (2d Cir. 2013) . . . . . . . . . . . . . . . . . . . . 2, 3
New York Civil Liberties Union v. Grandeau,
528 F.3d 122 (2d Cir. 2008) . . . . . . . . . . . . . . . . . . . . . . 2
Ross v. Bank of Am., N.A. (USA),
524 F.3d 217 (2d Cir. 2008) . . . . . . . . . . . . . . . . . . . . . . 2
Susan B. Anthony List v. Driehaus,
573 U.S. 149, 134 S. Ct. 2334,
189 L. Ed. 2d 246 (2014) . . . . . . . . . . . . . . . . . . . . . . . . 2
Statutes and Other Authorities
U.S. Const. Art. III . . . . . . . . . . . . . . . . . . . . . . . . 1, 2, 4, 7
42 U.S.C. § 2000cc  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 2000cc-2(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Doris Ulman Decl., Congregation Rabbinical
College of Tartikov, Inc., et al. v. Village
of Pomona, et al., Case No. 7:07-cv-06304 . . . . . . . . . 6

1
Try as they might, Respondents cannot duck the
important and recurring circuit conflict evidenced by
the decision below. In their Brief in Opposition (“BIO”),
Respondents limply doubt the existence of a conflict among
eight of the Circuit Courts of Appeal. Compare BIO at 10
(“[r]egardless of whether such a split exists”) and id. (“[e]
ven if this case did present the conflict that Petitioners
assert – and it does not – this present case would be an
unsuitable vehicle for this Court’s review”) with Pet. 1133 (iterating fully developed conflict among eight of the
courts of appeals). Respondents’ contentions—regarding
the nature of the decision by the Second Circuit, the
existence of compelling conflicts among the Circuits,
and the assertion that adequate alternative grounds for
affirmance exist—are incorrect.
I.

Respondents Misapprehend the Nature of the
Decision Below and the Article III Standing
Requirement of Ripeness.

Because Article III limits the reach of the federal
judiciary to actual cases or controversies, federal courts
must assure themselves that the matters over which they
exercise jurisdiction are, in fact, justiciable. In cases such
as Petitioners’, presenting claims redressable under the
Religious Land Use and Institutionalized Persons Act
of 2000 (“RLUIPA”) (Title 42 U.S.C. §§ 2000cc, et seq.),
Congress has commanded that courts confine themselves,
in determining standing, to “the general rules of standing
under article III of the Constitution.” See Title 42 U.S.C.
§ 2000cc-2(a).
Elevating form over substance, Respondents argue
that Petitioners misapprehend the decision below and

2
confuse the question of ripeness with the concept of
standing. BIO at 8-10. Respondents contend that the
decision below examined the question of standing through
the lens of Lujan v. Defenders of Wildlife, 504 U.S.
555 (1992), and did so in an unremarkable and correct
application of Lujan. BIO at 7-8. Respondents are wrong.
Respondents arrive at their misplaced conclusion
by ignoring that ripeness is, as the Second Circuit has
elsewhere held, “a specific application of the actual injury
aspect of Article III standing.” Nat’l Org. for Marriage,
Inc. v. Walsh, 714 F.3d 682, 688 (2d Cir. 2013); see also
Susan B. Anthony List v. Driehaus, 573 U.S. 149, 157,
n.5, 134 S. Ct. 2334, 2341, 189 L. Ed. 2d 246 (2014) (“The
doctrines of standing and ripeness ‘originate’ from the
same Article III limitation.”). There is no dispute here
that the three-part Lujan test governs determination of
standing under Article III. What Respondents ignore,
or dispute, is that a court’s determination of the ripeness
of a matter is a necessary aspect of the first prong of the
test in Lujan, supra, at 560-61.1
Viewed thus, “[c]onstitutional ripeness . . . is really just
about the first Lujan factor” with the result that when a
court concludes that “a plaintiff’s claim is constitutionally
1. Cf. New York Civil Liberties Union v. Grandeau, 528 F.3d
122, 130 n. 8 (2d Cir. 2008) (“Standing and ripeness are closely related
doctrines that overlap most notably in the shared requirement
that the plaintiff’s injury be imminent rather than conjectural or
hypothetical.”) (quotation marks and alterations omitted); Ross v.
Bank of Am., N.A. (USA), 524 F.3d 217, 226 (2d Cir. 2008) (because
ripeness and standing “overlap,” claims sufficiently “actual and
imminent” to establish Article III standing also were ripe for
adjudication rather than “merely speculative or hypothetical”).

3
unripe,” that court has concluded that the “plaintiff’s
claimed injury, if any, is not ‘actual or imminent,’
but instead ‘conjectural or hypothetical.’” National
Organization for Marriage, Inc., 714 F.3d at 688.
Here, a straightforward application of the Lujan test
to Petitioners’ claims leads ineluctably to the conclusion
that Petitioners possessed the requisite “standing” to
assert the RLUIPA challenges that the Second Circuit
dismissed.
Because Petitioners’ proposed use is completely
forbidden in the Village, Petitioners are suffering an
“actual” and “concrete” harm, not “conjectural” or
“hypothetical.” See Pet. App. 210a (“Challenged Laws
directly and substantially interfere with Plaintiffs’
associational rights because the laws bar completely
Tartikov’s rabbinical college from the Village”). Moreover,
Petitioners’ injury results directly from the ordinances. Id.
And, of course, a decision striking down the challenged law
would redress Petitioners’ injury; after all, Respondents
appealed the judgment of the district court for the
very reason that, under the district court’s judgment,
Petitioners were liberated from the unconstitutional and/
or illegal zoning provisions.
II. Other Than a General Denial, Respondents Failed
to Address the Conflicts Amongst the Decisions
of the First, Second, Third, Fifth, Sixth, Seventh,
Ninth, and Eleventh Circuits.
Petitioners identified a fully developed and significant
split among the United States Courts of Appeal for the
First, Second, Third, Fifth, Sixth, Seventh, Eighth, and

4
Ninth Circuits on the exact question raised in the Petition.
Compare Pet. 11-33 (iterating split) with Pet. i (stating the
question presented). In the face of that serious conflict,
Respondents attempt to deflect its impact by omitting any
argument of substance.
Instead, “the Village questions” the existence of the
conflict but does so without identifying a basis for its doubts
that would have benefitted the Court in consideration of
the Petition. BIO at 10. Then, having utterly omitted to
dispel the identified conflict, Respondents simply declare
that the conflict “does not” “exist.” BIO at 10.
Respondents invite this Court to whistle past the
graveyard, a graveyard in which the Second Circuit
and several sister Circuits have buried their obligation
to determine standing to sue under RLUIPA solely by
reference to constitutional rules of standing, specifically
ripeness. Respondents basically ignore that a substantial
majority of the Circuit Courts have staked conflicted
positions on the Question Presented. At present, RLUIPA
claimants confront the unfortunate circumstance that the
burden they must satisfy to establish their right to assert
a claim under RLUIPA will depend on the federal judicial
circuit within which their claims arise. Many RLUIPA
claimants will be turned away from the federal courts
because some Circuits, including the Second Circuit, have
disregarded the congressional command that standing is
to be assessed only by reference to Article III principles.
This Court’s duty to draw conflicting Circuit Courts into
a uniform application of federal law should not be shirked
here. This Court should grant review on certiorari and
resolve that conflict. In doing so, the Court can correct
the judgment below that resulted from the Second

5
Circuit’s application of a flawed and improper standard
in determining the question of Petitioners’ standing to
assert its claims pursuant to RLUIPA.
III. The Review Sought by Petitioners will Change the
Result Below
Respondents alternatively contend that this Petition is
an inappropriate vehicle by which to address the Question
Presented by Petitioners because, even if the Court agrees
that the conflict exists and even if this Court concludes
that the Second Circuit below erred, Petitioners will still
be unable to undertake the construction and operation
of the planned rabbinical college. BIO at 10-12; id. at 12
(“As their petition specifically does not seek review of
[Local Law 1 of 2001], even if the petition was granted and
the 2004 Law invalidated, the more restrictive barriers
of the 2001 Law would remain.”). That result obtains,
Respondents contend, by operation of another provision of
their zoning ordinance—one not at issue here—that will
prevent Petitioners from constructing and operating their
planned Rabbinical College. BIO at 10-12. In Respondents’
view, that other local law means that no effective relief can
be obtained by Petitioners here. Id.
Respondents are wrong.
The provisions of the Village Zoning Code enacted
by the passage of Local Law 1 of 2001 do not prevent
Petitioners from building and operating the planned
rabbinical college for two reasons.
First, the provisions of the Village’s zoning ordinance
added via enactment of Local Law 1 of 2001 are

6
unenforceable--as the Village has admitted--under New
York common law, including the decision of the New York
Court of Appeals in Cornell Univ. v. Bagnardi, 68 N.Y.2d
583 (1986). The Village knows that, by force of New York
common law, those provisions of Local Law 1 of 2001 that
might have prevented the construction and operation of
the planned rabbinical college are unenforceable.
Respondents are bound to the facts adduced below.
Respondents admitted below that those provisions
were unconstitutional. See Doris Ulman Decl. ¶ 51
(Congregation Rabbinical College of Tartikov, Inc., et
al. v. Village of Pomona, et al., Case No. 7:07-cv-06304,
Document 296). Moreover, the Village admitted that
its addition of the “dormitory” provision to its zoning
ordinance, by enactment of Local Law 5 of 2004, was
required in order to bring the Village Zoning Code into
compliance with requirements of New York law. See Doris
Ulman Decl. ¶ 48 (Congregation Rabbinical College of
Tartikov, Inc., et al. v. Village of Pomona, et al., Case
No. 7:07-cv-06304, Document 296).
Second, the provisions of Local Law 1 of 2001
relevant to the claims remaining at issue are not in force
and therefore do not injure Petitioners. 2 As the district
court found, the Village, by enactment of Local Law
No. 1 of 2001 “defined ‘educational institution,’ for the
first time . . . and subjected such institutions to certain
restrictions under the special permit approval process,
including minimum net lot area, maximum development
intensity, frontage, access, set back, parking, and noise
2. There certainly would be a standing issue if Petitioners
challenged specific zoning provisions that no longer exist.

7
guidelines.” Pet. App. 242a-243a. Subsequently, however,
the Village enacted Local Law 5 of 2004. Pet. App. 245a.
That enactment replaced several provisions from Local
Law 1 of 2001, as the district court explained. See Pet.
App. 245a-246a (“Local Law No. 5 of 2004 re-defined
‘educational institution’ . . . and amended the minimum lot
area, frontage, access, setback, and screening guidelines”
and “also included a provision permitting the development
of dormitories”).
Consequently, Respondents are mistaken. The former
zoning code provisions enacted through Local Law 1 of
2001 present no obstacle to Petitioners in constructing,
opening, and operating their planned rabbinical college. 3
Because Local Law 1 of 2001 presents no present
obstacle to Petitioners’ project, it would not render
this Court’s decision nugatory. Moreover, the assertion
that Petitioners “bought into an injury in fact” cannot
be squared either with the unenforceable status of
the provisions that the Village eliminated or with the
prescriptive effect of New York common law on those
provisions.

3. Respondents also invoke the Second Circuit’s assertion that,
because the Village’s Zoning Code included provisions preventing
Petitioners’ planned construction, the Petitioners had bought “into
an injury in fact” and, therefore lacked “Article III standing.” Pet.
App. 90a n.289. Respondents fail to account either for the fact that
such provisions no longer exist or for the admitted preclusive effect
on those provisions resulting from the application of New York
common law.

8
CONCLUSION
For the foregoing reasons, and those stated in the
petition for a writ of certiorari, the petition should be
granted.
Respectfully submitted,
Joseph A. Churgin
Donna C. Sobel
Savad Churgin
55 Old Turnpike Road,
Suite 209
Nanuet, New York 10954
(845) 624-3820

John G. Stepanovich
Counsel of Record
James M. Henderson, Sr.
Of Counsel
Stepanovich Law, PLC
618 Village Drive, Suite K
Virginia Beach, Virginia 23454
(757) 410-9696
john@stepanovichlaw.com

Roman P. Storzer
Storzer & A ssociates, P.C.
1025 Connecticut Avenue NW,
Suite 1000
Washington, DC 20036
(202) 857-9766
Counsel for Petitioners

